m

a

3

Supremo Court, U.S.
FH.ED

IN THE

MAR 2 6 2021
SUPREME COURT OF THE UNITED STA1 1§FFICE0F THE CLERK

J&cjj tJ/f/JUP-L jjfOlA/J
— PETITIONER
(Your Name)

3W/D S/f(AtfiJ
_ArTO(lA/£-i/

vs.

KMfjlAL OfA?r- RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

£

OU/LT OF A??6AiS ftp/t Tfft AJ(AJTl4 CllttdiT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

e-suJ ,A/tdue(. Mq/MaJ

;o

(Your Name)

4s?c- plottkcc

'P.O.'Sox yoov
(Address)

itbpcttict. AfazdA/fi

%<rl3Pi

(City, State, Zip Code)

(Phone Number)

received
APR - 1 2021
SUPREB&FCOUrtLnsK

QUESTIONS PRESENTED

1. When State courts were deprived of their primary responsibility
to decide on Petitioner^ federal claims, was it error for the court
not to to issue the COA ?
2. When the Inter-American Commisssion on Human Rights has
found the Arizona judicial systm does not comport to the
American Declaration should the COA have been issued?

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 0 of 37

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

jj/hZ^ef

v4.

jJo(Ua)

///frflA/S

U-S. CootT
'pGfZ-

of 4?PsfLs
A)fMThi

/[jo. 19-US 03

J)-C. a)o.H:I7

_C^- O0(o<3 - J(T2~

TABLE OF CONTENTS
QUESTIONS PRESENTED

0

TABLE OF CONTENTS

1

TABLE OF AUTHORITIES

2

TABLE OF APPENDIX

4

STATEMENT OF THE CASE

5

JURISDICTION

6

REASONS FOR THIS PETITION

7

WHEN

THE

COURT

FINDS

STATE

COURTS

WERE

NOT

GIVEN

THE

OPPORTUNITY TO REVIEW FEDERAL CLAIMS AS REQUIRED BY AEDPA, THE
FEDERAL HABEAS COURT HAS THE DUTY TO REMAND THE MATTER FOR THAT
REVIEW

7

FACTS PERTINENT TO CONSIDERATION OF THIS PETITION

9

SECOND ISSUE

32

CONCLUSION

36

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 1 of 37

TABLE OF AUTHORITIES
Cases
Atkins v. Virginia, 536 US 504 (2002)......................................................................... 18
Brown v. Board of Education 347 US 383(1954)..................................................... 18
Calderon v. Thompson, 523 U.S. 538, 555-56 (1998.............................................. 10
Davis v. Kramer, 167 F.3d 494, 500 (9th Cir. 1999), vacated, 528 U.S. 1133
(2000)........................... .......................................................................................................

7

Duncan v. Walker, 533 U.S. 167, 178 (2001).......................................................... .. 16
Fay v. Noia, 372 U.S. 391, 438 (1963).......................................................................... 14
Hamdi v. Rumsfeld 548 US 557 (2006)........................................................................ 18
Hayward v- Marshall, 603 F.3d 546 (9th Cir. 2010) (en banc).............................

6

Hilton v. Guyot, 159 U.S. 113, 163 (1895)................................................................. 17
IACHR, Report No. 219/19, Petition 459-08. Admissibility, Anant Kumar Tripati.
United States of America. October 24, 2019...... ..................................

17

-Irons v. Carey, 505 F.3d 846, 859 (9th Cir. 2007..................................

6

Irons v. Carey, 505 F.3d 846, 859 (9th Cir. 2007)................................ .

6

Johnson v. Williams, 133 S. Ct. 1088 (2013).......................................... .

11

Lawrence v. Texas 539 US 558 (2003)....................................:..................

18

Lockyer v. Andrade 538 U.S. 63 (2003)......................................................

9

Roper v. Simmons, 543 US 551 (2005).....................................................

17

Shackleford v. Hubbard, 234 F.3d 1072, 1079 n.2 (9th Cir. 2000)).

10

Slack v. McDaniel, 529 US 473, 484 (2000)............................................

14

Sosa v. Alvarez-Machain 542 US 692 (2004)..........................................

17

Teague v.Lane, 489 U.S. 288, 310 (1989)...............................................

6

The Paquete Habana 175 US at 700..........................................................

17

Van Tran v. Lindsey, 212 F.3d 1143, 1150, 1152 (9th Cir. 2000)....

8

Wainwright v. Sykes, 433 U.S. 72, 87 (1977)....................... .................

6

Williams v. Cavazos, 646 F.3d 626, 639 (9th Cir. 2011).....................

11

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 2 of 37

Williams v. Cavazos, 646 F.3d 626, 639 (9th Cir. 2011),.

11

7
Williams v. Taylor (Terry Williams), 529 U.S. 362 (2000).
Treatises
John H. Blume et al., In Defense of Noncapital Habeas: A Response to Hoffmann
5
and King, 96 Cornell L. Rev. 435, 440-43 (2011)

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 3 of 37

TABLE OF APPENDIX

1.February 10, 2021 order denying rehearing 20-16146
2. November 23, 2020 order denying COA
4 Doc 76 denying motion to vacate
8

Judgment on habeas doc 72

9 Doc 71 order denying habeas
31 Doc 40 order granting motion to vacate
42 Order dismissing habeas
50 Order denying rehearing
51 Memorandum decision
53 Rule 59 motion denied
55 Judgment
56 Summary judgment
64 Mandate
65 PCR dismissal
66 Letter from counsel
68 State bar letters
73 Inter American Commission on Human Rights Report
3- DGAfT

1&&4S

PETITION FOB A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 4 of 37

STATEMENT OF THE CASE

1. After a jury trial Petitioner was convicted and sought PCR relief
once his direct appeals were exhausted. ( App. 4 tO 49)
2. PCR counsel did not seek review of the trial court's decision and
lied to Petitioner and his family, stating he sought review. (App.
37-40)
3. Even though the Arizona Court of Appeals directed counsel to
ask the trial court or leave to file a delayed petition, counsel
failed to do so, thereby denying Arizona courts the opportunity
to rule on the federal claims. (App. 64-65)
4. The habeas court denied relief and declined a COA (App. 4 to 22)
5. The Ninth Circuit declined to issue the COA (App 2-3) and
denied rehearing.(App. 1)
6. Petitioner filed a diversity claim for malpractice against PCR
counsel and also claims with the State Bar (App. 68-70)
7. The trial court found that the failure of trial counsel to afford
Arizona Courts the opportunity was not the proximate cause of
his injury. (App. 53-63) which the Ninth Circuit upheld on
appeal. (App.51-52)
8. A timely petition for rehearing was filed and denied. (App. 50)

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 5 of 37

JURISDICTION
9. The Ninth Circuit decisions are unpublished, issued November
23, 2020 and December 9, 2020 and marked EX 2 and 51.
The order denying timely petitions for rehearing are
10.
and
marked EX 1 and 50 and were issued February 10, 2021
are unpublished.
28 U.S.C. 1254 (1) confers jurisdiction.
11.

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 6 of 37

REASONS FOR THIS PETITION
This proceeding involves the following questions of exceptional
importance:

WHEN THE COURT FINDS STATE COURTS WERE NOT GIVEN
THE OPPORTUNITY TO REVIEW FEDERAL CLAIMS AS
REQUIRED BY AEDPA, THE FEDERAL HABEAS COURT HAS
THE DUTY TO REMAND THE MATTER FOR THAT REVIEW
1. As the primary responsibility for substantive review now
rests with the state courts, the need for federal oversight of the
procedures is heightened. To this end, this Petitioner makes
the case for focusing more attention on the need for challenges
of process rather than result. When the Magistrate Judge's
decision reflects Petitioner was denied the opportunity for
review contemplated by the state rules of procedure, does the
principles of comity, finality, and federalism, mandate a
remand to the state courts to grant that contemplated review,
in light of the specific finding that counsel in the state PCR lied
to Petitioner about the process.
2. When the Inter-American Commission on Human Rights1 in

Hereinafter (IACHR)
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 7 of 37

IACHR, Report No. 219/19, Petition 459-08. Admissibility,
Anant Kumar Tripati. United States of America. October 24,
2019, has rejected the argument that the Arizona corrective
processes comport to the American Declaration, was it error
not to afford relief.

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 8 of 37

FACTS PERTINENT TO CONSIDERATION OF THIS PETITION
Hl.The Magistrate Judge correctly found in her decision that counsel
representing Petitioner

in the state PCR proceedings, lied to

Petitioner and his wife, when he told them that he sought review by
the Arizona Court of Appeals, of the decision of the trial court. (App D
33)2 (EX A) This caused the forfeiture/waiver/preclusion.
\2. The trial court granted counsel until April 11, 2014 to seek
review. However counsel3 in violation of Arizona Rules filed a second
request with the Appellate Court. On April 15, 2014 the Appellate
court dismissed the Petition as being untimely. It however in plain
language granted Petitioner leave to file the request with the trial
court. Counsel failed to comply with the directives and ask the trial

2 Application for Certificate of Appealability and paragraph therein.
3 Counsel is an experienced criminal defense lawyer in Arizona and
knew that in Arizona motion to file a delayed Petition must be filed
with the trial court and is routinely granted.
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 9 of 37

court to seek review. (App Tf 31)
13. As a consequence, the Arizona Appellate Courts failed to provide
the liberal review contemplated by Arizona law. They were not
afforded the opportunity to review claims as to ineffective assistance,
failure to investigate, failure to dismiss for pre indictment delay,
motion to suppress statements, motions as to loss of evidence, relief
for juror misconduct (Doc 71 pp 6 Para 20 to page 17 line 11).
Attached is the draft habeas in which the entire arguments were laid
down by Petitioner.)(EX B)
14.

IACHR, Report

No. 219/19, Petition 459-08. Admissibility,

Anant Kumar Tripati. United States of America. October 24, 2019,
issued a scathing decision finding the Arizona review process not
affording the protections afforded by the IACHR. (App 1 77)

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 10 of 37

ARGUMENTS WHY THE PETITION SHOULD BE GRANTED
FIRST ISSUE

1[5 A system in which federal habeas courts do not provide
independent review of constitutional claims previously litigated in
state court was by no means inevitable. Indeed, prior to AEDPA, if a
prisoner had a claim that was cognizable on habeas, and he was able
to navigate the procedural obstacles imposed by the Burger and
Rehnquist Courts, that prisoner generally had the right to have a
federal court independently review his constitutional claim. In other
words, irrespective of the state court's view of the merits of the
prisoner's constitutional claim, a federal court had the authority, yes
even the duty, to grant a writ of habeas corpus to a prisoner who was
imprisoned or sentenced in violation of the Constitution. 4
4 John H. Blume et al., In Defense of Noncapital Habeas: A Response
to Hoffmann

and King, 96 Cornell L. Rev. 435, 440-43 (2011).

Although the difficulties for habeas petitioners

imposed by the

Burger and Rehnquist Courts pale in comparison to AEDPA and its
subsequent interpretation by the Court, the Burger and Rehnquist
Courts'

pre-AEDPA

rulings

excessively

limited

petitioners'

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 11 of 37

T[6 In 1996, inspired by the bombing of the federal building in
Oklahoma City and the desire of President William Clinton, then
seeking re-election, to be seen as a law-and order candidate, an eager
Congress passed AEDPA. 5 This statute was seen as misguided from
its inception because it elevated the desire for finality and comity over
the constitutional rights of criminal defendants.
^[7However, 1 despite

disagreement with AEDPA, judges who

disagreed with the statute, have sought to interpret it as it was

opportunities to vindicate their rights as well. See, e.g.y Teague
v.Lane, 489 U.S. 288, 310 (1989) (barring the application of new
constitutional rules of criminal procedure that were announced after
the petitioner’s conviction became final); Wainwright v. Sykes, 433
U.S. 72, 87 (1977) (barring federal habeas review of claims that were
procedurally defaulted in state court absent a showing of cause and
prejudice).
5 28 USC § 2254(d), which limits the ability of federal courts to grant
habeas relief, was inserted without much advance discussion into a

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 12 of 37

written rather than to expand on its provisions to a point that
threatens the very existence of the Writ.
l|8Through a series of decisions that are highly questionable as a
matter of statutory interpretation and have troubling constitutional
implications, 6 the Court has deliberately exacerbated the worst
aspects of AEDPA. Specifically, the Court has in many instances
forbidden federal courts to exercise meaningful review over legitimate
constitutional

claims,

and

has

instead

allowed

erroneous

constitutional decisions by state courts to stand in the name of
comity. As is demonstrated below, a fundamental and far-reaching
shift in

the Supreme Court’s AEDPA jurisprudence came in its

needless and highly restrictive view of when a state court

^ irons v. Carey, 505 F.3d 846, 859 (9th Cir. 2007) (Reinhardt, J.,
concurring specially)

("Having granted the courts the authority to

review state convictions under our habeas powers, it seems to me
inconsistent with our fundamental obligations as judges to require
us, to rule for the state

regardless of whether it violated the

Constitution.”), overruled by Hayward v. Marshall, 603 F.3d 546 (9th
Cir. 2010) (en banc).
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 13 of 37

adjudication of an individual's federal claim “resulted in a decision
that was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court
of the United States” 7—a precondition established by AEDPA for a
federal court to grant the writ in a case in which a claim has been
adjudicated on the merits by a state court. The Court's construction
of this language is far beyond what the text of AEDPA required and
has left state prisoners unlawfully detained or facing execution
without any legal recourse in the federal courts.-^
T[9 Before the Supreme Court overruled lower courts ,

courts read

AEDPA as the ordinary meaning of its text would appear to demand.
They explained that the

terms “contrary to” and “unreasonable

application of’ “reflect the same general requirement that federal
courts not disturb state court determinations unless the state court
has failed to follow the law as explicated by the Supreme Court.”
Rather than try to impose a “rigid distinction” or “fixed division”
between the terms, courts said that the “terms overlap, and cases

28 U.S.C. § 2254(d)(1) (2012).
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 14 of 37

may fall into one or both classifications.” 8 The result was that courts
reviewed state court judgments on questions of federal law simply to
determine whether the state court had erred on a matter clearly
governed by Supreme Court

precedent. Courts

respected the

reasoned judgments of state courts, but also respected the right of
every individual to be free from unlawful imprisonment.
Tf 10 In Williams v. Taylor (Terry Williams1, 9 the Supreme Court
began to seriously restrict the ability of federal courts to offer state
prisoners a meaningful recourse for violations of their federal
constitutional rights. Contrary to the opinions of circuit courts and to
the well-reasoned concurrence of Justice Stevens, Justice O’Connor,
writing for' a majority of the Justices, claimed except in unusual or
exceptional circumstances,

that,

as

a matter

of statutory

interpretation, “contrary to” and “unreasonable application of” must
hold independent, mutually exclusive meanings. 10

Davis v. Kramer, 167 F.3d 494, 500 (9th Cir. 1999), vacated, 528
U.S. 1133 (2000).
9 Williams v. Taylor [Terry Williams), 529 U.S. 362 (2000).
Terry Williams, 529 U.S. at 404.
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 15 of 37

HI 1 Ostensibly for the sake of abiding by this unnecessary and
unsupported construction of the statute, the majority forced the
“contrary to” language to hold a meaning completely at odds with the
ordinary meaning of the term. Selectively citing Webster’s Dictionary,
the majority decided that for a state court decision to be “contrary to”
clearly established Supreme Court precedent, it not only had to be
wrong, but the state court had to have “applie[d] a rule that
contradicts the governing law set forth in [Supreme Court] cases” or
“confronted] a set of facts that are materially indistinguishable from
a decision of [the Supreme] Court and nevertheless arrive[d] at a
[different] result.” Thus, if a state court interpreted Supreme Court
precedent erroneously, and arrived at an incorrect legal conclusion,
that error alone would not be enough for a federal habeas court to
grant relief to the aggrieved petitioner.
T[12Remarkably, in the view of the supposed textualists on the
Supreme Court, an erroneous holding on the meaning of Supreme
Court precedent leading to an incorrect conclusion does not in itself
result in a decision “contrary to” clehrly established federal law.

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 16 of 37

HI3Although the Terry Williams majority went to great lengths to
define “contrary to” in such a way that it nearly guaranteed that
many state prisoners who suffered constitutional violations would
not receive relief, it did not define the meaning of “unreasonable
application,” the other basis for obtaining relief under AEDPA. 11 The
Court made only two things clear: First,

an “unreasonable

application” is different than an erroneous or incorrect application.
Second, a state court’s application of clearly established law is not
reasonable simply because one “reasonable jurist” believes that it is
correct.
H14Thus, after Terry Williams

courts were left with an interpretive

gap to fill when considering AEDPA cases. We filled that gap in Van
Tran v. Lindsey. There, circuit courts noted that the Court in Terry
Williams adopted an “objectively unreasonable” standard—the same
standard previously used by the Third and Eighth Circuits, which
had rejected “other circuits’ tests [that] were too deferential [to state
courts]. The Supreme Court,” “chose to adopt the interpretation of
AEDPA that espoused the more robust habeas review.”

11 Van Tran v. Lindsey, 212 F.3d 1143, 1150, 1152 (9th Cir. 2000).
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 17 of 37

K15In order to strike the proper balance between an overly deferential
test and a test that would reverse any incorrect application of federal
law, courts decided to use the “clear error” standard to guide their
review of what constitutes an “unreasonable application” of federal
law. They explained that “[t]he 'mutual respect’ that informs the use
of the clear error standard is highly analogous to the comity concerns
at issue in habeas cases.”
U16 They quickly learned that they were wrong about what the Court
had in mind. Lockyer v. Andrade 12 disabused courts of their
optimistic view that the Court had chosen to provide habeas
petitioners with a fair opportunity to seek relief from unconstitutional
deprivation of rights by state courts. Despite the fact that Terry
Williams had not provided a method for determining reasonableness
under AEDPA, the Andrade Court treated Van Tran as though it had
ignored Terry Williams rather than attempted faithfully to implement
it. In a patent misreading of Van Tran and the “clear error” doctrine
generally, the Supreme Court claimed that “clear error” review would

12 Lockyer v. Andrade 538 U.S. 63 (2003).
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 18 of 37

allow federal habeas courts to reverse state court decisions simply
because the state court applied clearly established federal law
incorrectly.
Tf 17

Unfortunately,

the

Court's

extreme

construction

of

“unreasonable application” and “contrary to” is only one example of a
larger trend in the

Supreme Court’s habeas cases, in which the

Court’s unsurpassed veneration of state courts comes at the expense
of individual constitutional rights. Perhaps most prominent among
the cases of this ilk is, again, Harrington v. Richter. In Richter, the
Court justified its extremely restrictive view of AEDPA by asserting
that “[f]ederal habeas review of state convictions frustrates both the
States’ sovereign power to punish offenders and their good follow
Terry Williams, the new majority reversed us by applying a new and
transparently incorrect standard.13
Tf 18 In fact, the Court in Richter was so concerned about state
sovereignty that it constructed14 a completely indefensible rule

13

14

Richter, 131 S. Ct. at 786-87 (internal quotation marks omitted).
Calderon v. Thompson, 523 U.S. 538, 555-56 (1998) .

Stephen

Reinhardt, The Anatomy of an Execution: Fairness vs. “Process”, 74
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 19 of 37

designed to15 immunize state court decisions that are accompanied
by no explanation at all. AEDPA, on its face, applies only when a
federal habeas court reviews a claim that was "adjudicated on the
merits in State court.” 16
Tf 19 In Richter, the state court denied the petitioner's Strickland
claim, as well as seven other

claims, in an eight-word ruling:

"Petition for Writ of Habeas Corpus is DENIED.”

17

Although on

federal habeas review courts typically “ look through' to the last
state-court decision that provides a reasoned explanation capable of
review,” 18this eight-word ruling was the only state court decision on

N.Y.U. L. Rev. 313 (1999
15 Richter, 131 S. Ct. at 787 (quoting Harris v. Reed, 489 U.S. 255,
282 (1989) (Kennedy,

J., dissenting)) (internal quotation marks

omitted).
16 28 U.S.C. § 2254(d).
17

Respondent’s Brief on the Merits at 11-12, Harrington v. Richter,

131 S. Ct. 770 (2011) (No. 09-587).
18 Murray v. Schriro, 745 F.3d 984, 996 (9th Cir. 2014) (quoting
Shackleford v. Hubbard, 234 F.3d 1072, 1079 n.2 (9th Cir. 2000)).
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 20 of 37

the petitioner’s Strickland claim—a claim the Ninth Circuit later
found to be meritorious. 19 It seems reasonable to assume that when
a state court, as in Richter, issues a decision with no explanation at
all, it may not have actually adjudicated the claim at issue on the
merits. Certainly, if the state court gives no reasons for its decision, it
is difficult for us to know whether the merits of the petitioner’s claim
were ever given serious consideration.
120 The Supreme Court in Richter was unmoved by this basic logic.
Rather than giving the text of AEDPA a reasonable construction, the
Court invented a “presum[ption] that the state court adjudicated the
claim on the merits in the absence of any indication or state-law
procedural principles to the contrary.”
121 In Johnson v. Williams, 20 the Court went even further. It
extended this presumption to a petitioner’s federal claim even when
the state court

“provided a lengthy, reasoned explanation for its

denial of [the petitioner’s]

appeal, but none of those reasons

19 Richter v. Hickman, 578 F.3d 944, 968-69 (9th Cir. 2009) (en
banc), rev’d sub nom. Harrington v. Richter, 131 S. Ct. 770 (2011)
29 133 S. Ct. 1088 (2013).
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 21 of 37

addressed her [federal] claim in any fashion, even indirectly.” 21 To
add insult to injury, the Court has also adopted the rule that “[wjhere
a state court's decision is unaccompanied by an explanation, the
habeas petitioner’s burden still must be met by showing there was no
reasonable basis for the state court to deny relief.”22
\22 In other words, if the state court did not consider a particular
basis for its decision, or even silently rejected that basis as
inapplicable to the facts before it, that basis may still be a sufficient
cause for upholding an unlawful conviction. The result is that state
courts can ignore or summarily deny meritorious claims as long as a
federal judge can conjure up any possible way that existing Supreme

21 Williams v. Cavazos, 646 F.3d 626, 639 (9th Cir. 2011), rev’d sub
nom. Johnson v. Williams, 133 S. Ct. 1088 (2013). In that case, the
petitioner raised both a state-law claim and a Sixth Amendment
claim challenging the legality of the trial judge’s decision to dismiss a
juror during deliberations. The state court expressly decided only the
petitioner’s state-law claim and failed even to mention the federal
claim. Id. at 634-35.
22 Richter, 131 S. Ct. at 784 (emphasis added).
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 22 of 37

Court precedent would not compel a contrary conclusion.
U23This rule is particularly difficult to square with AEDPA’s
requirement that the state court must have adjudicated the claim on
the merits before its decision is entitled to deference.
Tf24 What is clear from Richter and Williams is that the Supreme
Court's comfort with dramatically limiting the right to federal habeas
review rests in large part on its confidence in the ability of state
courts to assess federal constitutional claims. To many, it would
seem far more consistent with the principles underlying AEDPA, let
alone our federal judicial system generally, were the Court to have
limited its confidence to the reasoned judgments of state courts
rather than granting them total deference with respect to matters of
federal, constitutional rights that they failed to discuss. A basic
problem with such total deference is that state courts are simply not
as willing or able to recognize infringements of federal constitutional
rights in criminal proceedings as are federal courts.
T[25 Although there are many reasons why state courts are unable or
unwilling to afford the same dedication, to federal constitutional
rights as are federal courts, the most obvious is that federal judges
have life tenure and salary protection, while many state judges do
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 23 of 37

their job under the threat of an election challenge if they issue or join
in unpopular decisions, especially in death penalty cases. 23 While

23 Burt Neuborne, The Myth of Parity, 90 Harv. L. Rev. 1105, 1127-28
(1977). For example, in California, the voters removed three state
supreme court Justices, including the Chief Justice, purportedly
because of their views on the death penalty, see Robert Lindsey,
Defeated Justice Fearful of Attacks on Judiciary, N.Y. Times, Nov. 8,
1986,

at

available

7,

at

http: //www.nytimes.com/1986/ 11/08/us/defeated-justice-fearfulof-attacks-on-judiciary.html (“One issue dominated the campaign
that led to [Chief Justice Rose Bird’s] removal from the court and that
of Justices Grodin and Reynoso: the death penalty.”), although in
actuality the removal campaign was financed and promoted by
business interests seeking their defeat for wholly different reasons,
see Henry Weinstein, Rose Bird Eulogized for Compassion, Strength,
L.A.

Times,

Jan.

10,

2000,

at

A3,

available

http: //articles.latimes.com/2000/jan/ 10/news/mn-52560

at
(“The

recall focused on the death sentence issue but was financed in large
part by major corporate interests angry at Bird for her decisions on
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 24 of 37

state judges who decide criminal appeals face the possibility that
they will be labeled “soft on crime,” federal judges are free to decide
such issues secure in the knowledge that the unpopularity of their
decisions can pose no threat to their job security. Federal judges also
have the advantage of more experience enforcing individual
constitutional rights, as well as a special obligation to the
Constitution.
T26Indeed, the protection of the federal Constitution is the
fundamental reason we have federal courts: that is simply the most
important function federal judges perform. Oddly, both Richter and
Williams justified the presumption that a state court adjudicated a

behalf of workers and consumers.”). More recently, voters in Iowa
removed three state supreme court Justices, including that state's
Chief Justice, due to their votes to legalize same-sex marriage. See
A.G. Sulzberger, Ouster of Iowa Judges Sends Signal to Bench, N.Y.
Times, Nov. 4, 2010, at Al, available at http://www
. nytimes. com /2010/11/04/us / politics / 04judges. html?_r= 0.

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 25 of 37

claim on the merits by referring to the heavy caseload of state
appellate courts.
T|27 The Court reported, for example, that the “California Supreme
Court disposes of close to 10,000 cases a year, including more than
3,400 original habeas corpus petitions.” The workload of state judges
is, admittedly, a fair reason why state courts frequently do not
address (or, more likely, even consider) prisoners' claims of federal
constitutional violations.
K28 However, the fact that resource-constrained state courts have a
backlog of cases is not a reason in favor of deference; it clearly cuts in
the opposite direction, as truly meritorious claims are far more likely
to be missed under a system in which state court judges simply are
not able to exercise the same degree of care as federal appellate
judges. That the Supreme Court draws the opposite conclusion,
reasoning that because state courts do not have time to prepare
opinions in each of their cases, federal courts must assume that they
considered each constitutional claim and defer to their often
unexplained denials of relief, is both difficult to comprehend and
fundamentally unfair to individuals who may have been convicted or
sentenced to life in prison, or even death, in violation of the dictates
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 26 of 37

of the Constitution.
T[29 Taking into consideration the inherent limitations of state court
review, it is even clearer that Justice Stevens was correct when he
proclaimed the “independent responsibility” of federal courts to
interpret federal law and warned against an interpretation of AEDPA
“that would require the federal courts to cede this authority to the
courts of the States”—an interpretation that “would be inconsistent
with the practice that federal judges have traditionally followed in
discharging their duties under Article III of the Constitution.”
Unfortunately, the interpretation against which Justice Stevens
warned is precisely that which governs the writ of habeas corpus
today.
^[30 The Supreme Court instructed lower courts that habeas corpus
was “governed by equitable principles.”24. According to Douglas
Laycock,25

“the rule that equity will not act if there is an adequate

remedy at law has been used and abused for so many disparate

24 Fay v. Noia, 372 U.S. 391, 438 (1963)
25 Douglas Laycock, Restoring Restitution to the Canon, Mich. L. Rev.
929, 947-48 (2012)
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 27 of 37

purposes over the years that introducing a limited version of it here
will inevitably be a source of confusion and mischief.
Tf31 “Jurists of reason would find it debatable whether the petition
states a valid claim for denial of a constitutional right and that jurists
of reason would find it debatable whether the district court was
correct in its procedural ruling” 26
%l>

^32 Counsel did not seek review (App

by the Arizona Appeals

and Supreme Court, as found by the Magistrate Judge, but lied to
Petitioner and his wife that he sought review. (App 1 -34"1;hrough 62)
These claims were not reviewed by Arizona courts. The trial court
granted counsel until April 11, 2014 to seek review. However counsel
in violation of Arizona Rules filed a second request with the Appellate
Court. On April 15, 2014 the Appellate court dismissed the Petition
as being untimely. It however granted Petitioner leave to file the
request with the trial court. Counsel failed to ask the trial court to
seek review. (App H 31) They were not afforded the opportunity to
review claims as to ineffective assistance, failure to investigate,

26 Slack v. McDaniel, 529 US 473, 484 (2000)

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 28 of 37

failure to dismiss for pre indictment delay, motion to suppress
statements,

motions as to loss of evidence, relief for juror

misconduct, and falsification of evidence. (Doc 71 pp 6 Para 20 to
page 17 line 11).
1(33 Jurists of reason would find it debatable whether Arizona affords

6t/
greater review under its rules then that afforded by AEDPA (App H -63T
through 70)
1J34 AEDPA mandated a remand to the state courts to grant that
contemplated review, in light of the specific finding that counsel in
the state PCR lied to Petitioner about the liberty interests guaranteed
by the state process.
1(35 Petitioner was denied procedural due process guaranteed by the
state review process.
1(36 Justice Anthony M. Kennedy in a Speech before the American
Bar Association Annual Meeting (Aug. 9, 2003). Stated “were we to
enter the hidden world of punishment, we should be startled by what
we see. . . . While economic costs, defined in simple dollar terms, are
secondary to human costs, they do illustrate the scale of the criminal
justice system. “
1(37As the primary responsibility for substantive review now rests
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 29 of 37

with the state courts, the need for federal oversight of the procedures
is heightened. To this end, this Petitioner makes the case for focusing
more attention on the need for challenges of process rather than
result.
Tf38 Eliminating federal oversight is not a natural or necessary
consequence of diminished success on the merits but

instead, a

re-orientation of the focus of judges and litigants. 27
T|39 “Comity, finality, and federalism” failed because no review was
had and this, mandated Arizona courts review these claims in
accordance wdth their review process.28

27 John H. Blume, Sheri Lynn Johnson & Keir M. Weyble, In Defense
of Noncapital Habeas: A Response to Hoffmann and King, 96 Cornell
L. Rev. 435, 473-74 (2011) (advocating for the abandonment of limits
on habeas relief such as the procedural default doctrine and §
2254(d).
29 Duncan v. Walker, 533 U.S. 167, 178 (2001) (explaining that
Congress enacted AEDPA both to codify preexisting judge-made
doctrines that restricted the habeas corpus remedy for state
prisoners and to impose some new restrictions, all for the purpose of
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 30 of 37

T[40 As the role of deciding the substantive law, often with binding
and nearly unreviewable finality, falls to the states; it becomes
increasingly important to ensure that states' post conviction systems
are procedurally fair and reliable on an individual and a systemic
level.
Tf41

Consequently—now more than ever—it is important for

prisoners to find creative ways to litigate challenges to the state
process rather than litigating (or as a means of facilitating) challenges
to the result.
1420ne forum that affords an opportunity for a federal challenge
based on the inadequacy of state proceedings is federal habeas
review. To be sure, federal habeas review is presently centered on
challenges to the state court's result, but federal review, even
constrained by AEDPA, can function as a meaningful review.
Tf43 As in the instant case the Magistrate Judge correctly found in
her decision that counsel representing Petitioner,

in the sate PCR

proceedings, lied to Petitioner and his wife, when he told them that he
sought review by the Arizona Court of Appeals, of the decision of the

“furthering] the principles of comity, finality, and federalism”).
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 31 of 37

33/ 5^

trial court. (App 1 33j' rehearing and/or en banc review should^e
granted with instructions Arizona courts afford Petitioner that review
which was denied, because counsel lied to the Petitioner and his
family. They must have the opportunity to review the claims as to
ineffective assistance, failure to investigate, failure to dismiss for pre
indictment delay, motion to suppress statements, motions as to loss
of evidence, relief for juror misconduct (Doc 71 pp 6 Para 20 to page
17 line 11).(EX B)

SECOND ISSUE
II 44 No international tribunal has ever issued as to any one person
such a scathing finding a violation of IACHR29
1(45 Pursuant to Articles 31 to 34 of its Rules of Procedure the ICHR
granted admissibility as to violation of life, liberty and security;
equality before law.
146

“International law30 ... is part of our law and must be

29 IACHR, Report No. 219/19, Petition 459-08. Admissibility, Anant
Kumar Tripati. United States of America. October 24, 2019.
30 Hilton v. Guyot, 159 U.S. 113, 163 (1895)
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 32 of 37

ascertained by U.S. courts of justice.” The Paquete Habana,31 ruled
in 1900 that “international law is part of our law, and must be
ascertained and administered by the courts of justice of appropriate
jurisdiction, as often as questions of right depending upon it are duly
presented

for

their

determination.”

Sosa v.

Alvarez-Machain

32reaffirmed the “international law is part of our law” principle, noting
that domestic U.S. law recognizes international law or the law of
nations and stated that “[f]or two centuries we have affirmed that the
domestic law of the United States recognizes the law of nations.”
Roper v. Simmons, 33in holding as unconstitutional the execution of
minors - persons below the age of eighteen when they committed
their

crimes

acknowledged

“the

overwhelming

weight

of

international opinion against the juvenile death penalty” and cited
the United Nations Children’s Convention, the Civil and Political
Rights Covenant, the American Convention on Human Rights, and
the African Charter on the Rights and Welfare of the Child Lawrence

31 The Paquete Habana 175 US at 700
32 Sosa v. Alvarez-Machain 542 US 692 (2004)
33Roper v. Simmons, 543 US 551 (2005)
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 33 of 37

v. Texas 34 struck down as unconstitutional a Texas statute that
prohibited two same sex adults from engaging in intimate sexual
relations, citing international jurisprudence and noting that “The
right the petitioners seek in this case has been accepted as an
integral part of human freedom in many other countries.” Atkins v.
Virginia, 35which ruled that executing the mentally retarded was
cruel and unusual punishment forbidden by the U.S. Constitution,
noted that “within the world community, the imposition of the death
penalty for crimes committed by mentally retarded offenders is
overwhelmingly disapproved.”
1(47 In 1954, in Brown v. Board of Education, 36the Court abolished
de jure racial segregation,

as an affront to the principle of equality,

but not as a “human rights” violation.
1(48 Hamdi v. Rumsfeld, 37 suggested that the Geneva and Hague
Conventions preclude the indefinite detention of alleged terrorists. In

^Lawrence v. Texas 539 US 558 (2003)
35 Atkins v. Virginia, 536 US 504 (2002)
36 Brown v. Board of Education 347 US 383(1954)
37 Hamdi v. Rumsfeld 542 US 507 (2004)
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 34 of 37

i

Harridan v. Rumsfeld, 38the Court subsequently held that the military
commissions devised by the Bush administration violated the Geneva
Conventions.

38Hamdi v. Rumsfeld 548 US 557 (2006)
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 35 of 37

I

CONCLUSION

Tf49 The court should grant the petition and remand the matter for
issuance of the writ that state courts afford the appellate review
which was denied.
Respectfully submitted, ^Tff(d
Petitioner

7

OF

oran
JAaa/o&L

■

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 36 of 37

